CERTIFICATE OF SERVICE
No. 20-695
Derek Piersing,
v.

Petitioner

Domino’s Pizza Franchising LLC, et al.,
Respondent.
I, J. Samuel Tenenbaum, do hereby certify that, on this 21st day of
December, 2020, I caused one copy and an electronic copy of the Brief of Amicus
Curiae Professor George A. Bermann in Support of Petitioner in the foregoing case
to be served electronically and by first class mail, postage prepaid, on the following
parties:
Leah Marie Nicholls
Public Justice, P.C.
1620 L Street, N.W.
Suite 630
Washington, DC 20036
LNicholls@publicjustice.net

Norman M. Leon
DLA Piper, LLP
444 West Lake Street, Suite 900
Chicago, IL 60606-0089
(312) 368-4060
Norman.leon@dlapiper.com
/s/ J. Samuel Tenenbaum
J. SAMUEL TENENBAUM
BLUHM LEGAL CLINIC
COMPLEX CIVIL LITIGATION
AND INVESTOR PROTECTION
CENTER
NORTHWESTERN PRITZKER
SCHOOL OF LAW
375 East Chicago Avenue
Chicago, Illinois 06011
(312) 503-4808
s-tenenbaum@
law.northwestern.edu

